Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     COLLECTION STATUS OF
   MEDICARE OVERPAYMENTS
    IDENTIFIED BY PROGRAM
   SAFEGUARD CONTRACTORS




                    Daniel R. Levinson
                     Inspector General

                       May 2010
                     OEI-03-08-00030
E X E C U T I V E                       S U             M M A R Y
    E X E C U T I V E                                      S U M M A R Y


                   OBJECTIVE
                   To determine the collection status, as of June 2008, of Medicare
                   overpayments that program safeguard contractors (PSC) identified and
                   referred to claims processors for collection in 2007.


                   BACKGROUND
                   This report and a companion Office of Inspector General (OIG) report,
                   entitled Medicare Overpayments Identified by Program Safeguard
                   Contractors, OEI-03-08-00031, respond to a congressional request
                   regarding the identification and collection of PSCs’ overpayment
                   referrals.

                   The Centers for Medicare & Medicaid Services (CMS) had 18 benefit
                   integrity task orders with PSCs in 2007. Each task order covers a
                   geographic jurisdiction. In this report, the term “PSC” refers to a PSC
                   benefit integrity task order.

                   PSCs are required to detect and deter fraud and abuse in Medicare
                   Part A and/or Part B in their jurisdictions. PSCs conduct
                   investigations; refer cases to law enforcement; and take administrative
                   actions, such as referring overpayments to claims processors for
                   collection and return to the Medicare program.

                   Claims processors make a final determination on the dollar amount to
                   “demand” from the provider, which may differ from the overpayment
                   amount referred by the PSCs. Outcomes of law enforcement
                   investigations or provider appeals may also change the amounts that
                   providers must repay.

                   Claims processors collect overpayments by withholding the provider’s
                   future Medicare payments or by direct refund from the provider. With a
                   few exceptions, if claims processors cannot collect the overpayment
                   within 6 months, they must refer the overpayment to the Department of
                   the Treasury’s (Treasury) cross-servicing program for collection.

                   Claims processors are required to keep track of collection information on
                   overpayments they seek to recover. However, at the time of our review,
                   CMS did not require or provide incentives to PSCs to keep track of the
                   amount claims processors collected on PSC overpayment referrals.

                   CMS is in the process of transitioning PSCs to seven Zone Program
                   Integrity Contractors (ZPIC). Each ZPIC will be responsible for all
                   claim types in its geographic zone. CMS is also providing incentives to

 OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   i
E X E C U T I V E                       S U             M M A R Y


                   claims processors to provide collection information to ZPICs. According
                   to CMS staff, CMS also expects ZPICs in high-fraud regions to focus on
                   quick response to fraud and administrative actions.

                   For this report, we requested information from PSCs to identify each
                   overpayment that they referred to claims processors for collection in
                   2007. We forwarded this information to the claims processors identified
                   by PSCs and requested information about the collection status of each
                   overpayment through June 2008.

                   The percentages in the finding add up to 101 percent rather than
                   100 percent because of rounding.


                   FINDING
                   Overpayments that PSCs referred for collection did not result in
                   significant recoveries to the Medicare program. PSCs referred
                   4,239 overpayments totaling $835 million to claims processors in 2007,
                   but very little had been collected by claims processors as of June 2008.
                   Claims processors collected 7 percent, or $55 million. Of the $55 million
                   collected, 27 percent was for Part A claims; 56 percent was for Part B
                   claims excluding durable medical equipment, prosthetics, orthotics, and
                   supplies (DMEPOS); and 17 percent was for Part B DMEPOS claims.

                   Claims processors sent 53 percent, or $446 million of $835 million, in
                   PSC overpayment referrals to Treasury’s cross-servicing program.
                   However, the cross-servicing program does not have a high rate of
                   return. For each year between fiscal years 2003 and 2007, the program
                   never collected more than 2 percent of all debt referred to it.

                   Claims processors reported that collection was not complete for
                   $40 million, or 5 percent, of the $835 million in overpayments that PSCs
                   referred for collection. Regarding the $40 million, claims processors
                   were still withholding money from the providers’ future payments
                   ($27 million), providers were on extended repayment plans ($4 million),
                   the collection process had not begun as of June 2008 ($3 million), and
                   claims processors had not completed collection but did not explain the
                   reason why or reported that they could not provide the information
                   ($6 million).

                   Of the $835 million in PSC overpayment referrals, $43 million, or
                   5 percent, represents overpayments for providers that stopped billing,
                   filed for bankruptcy, are out of business, or are deceased. When



 OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   ii
E X E C U T I V E                       S U             M M A R Y


                   providers stop billing, it is impossible for claims processors to withhold
                   future payments.

                   Claims processors reported that as of June 2008, $139 million, or
                   17 percent, of PSC overpayments was on hold because of ongoing
                   investigations ($76 million) and provider appeals ($63 million).

                   Six percent, or $48 million, of the $835 million in PSC overpayment
                   referrals was no longer owed by providers as of June 2008 because of
                   revisions claims processors made to overpayment collection amounts
                   and appeal decisions that were favorable to providers.

                   For 8 percent of the overpayment dollars referred by PSCs ($64 million
                   of $835 million), claims processors could not provide data. They
                   reported that they did not receive referrals of or that they could not
                   provide any collection information for 1,060 of 4,239 overpayments.
                   These 1,060 overpayments totaled $58 million. Claims processors also
                   did not provide all of the necessary information for OIG to determine
                   the collection status for another 44 overpayments, totaling $6 million.


                   RECOMMENDATIONS
                   PSCs were established to strengthen CMS’s ability to detect and deter
                   potential fraud and abuse in the Medicare program. To ensure that
                   PSCs and ZPICs effectively safeguard the Medicare dollars at risk, it is
                   important that CMS know the actual amount of overpayments that
                   PSCs and ZPICs refer to claims processors and the collection status of
                   these overpayments. Moreover, CMS needs to ensure that PSCs, ZPICs,
                   and claims processors can identify all current and future overpayment
                   referrals by PSCs and ZPICs.

                   We recommend that CMS:
                   Regularly collect all necessary information to determine the
                   overpayments PSCs and ZPICs refer to claims processors for
                   collection, the collection status of these overpayments, and the
                   percentage of overpayments in each category of collection status.
                   Require that PSCs, ZPICs, and claims processors have controls in
                   their tracking systems to ensure that all overpayment referrals and
                   data related to their collection status can be found.
                   Determine what happened to the 1,060 overpayments that PSCs
                   referred to claims processors in 2007 for which claims processors
                   could not provide any collection information.


 OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   iii
E X E C U T I V E                       S U             M M A R Y



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS stated that it has begun implementing its strategy to align the
                   existing PSCs geographically with claims processors, i.e., the Medicare
                   Administrative Contractors (MAC), and that the premise of the new
                   strategy is to have a more concentrated effort of identifying fraud and
                   abuse across claim types in each zone.

                   CMS concurred with our first recommendation and stated that to
                   ensure that it can monitor how MACs respond to PSCs’ overpayment
                   referrals, CMS added this requirement, in October 2009, to the CMS
                   Analysis/Reporting/Tracking System (CMS ARTS) template for monthly
                   reporting. Additionally, in order for MACs to obtain a performance
                   award fee, a criterion was added in fiscal year 2009 related to the
                   tracking of overpayments received from PSCs and ZPICs.

                   CMS concurred with our second recommendation and, in
                   October 2009, added a data field to CMS ARTS for monthly reporting of
                   the collection status of the overpayment referrals. Submitting this
                   information is now a requirement in the ZPIC Statement of Work.
                   CMS concurred with our third recommendation and is working with
                   claims processors to determine what happened to the 1,060
                   overpayments, for which the claims processors could not provide
                   collection information. CMS will require the claims processors to
                   recover the potential overpayments identified by OIG consistent with
                   the agency’s policies and procedures.
                   Although CMS has implemented several monthly reporting
                   requirements to improve the tracking and quality of overpayment
                   collection information, OIG believes it is important that CMS also
                   continually monitor and evaluate the effectiveness of its contractors’
                   overpayment collection efforts.




 OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   iv
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDING................................................... 9
                   Overpayments that PSCs referred for collection did not result in
                   significant recoveries to the Medicare program. . . . . . . . . . . . . . . . 9


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                   Agency Comments and Office of Inspector General Response . . . . 14


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                   A: Benefit Integrity Task Orders in 2007 . . . . . . . . . . . . . . . . . . . 16

                   B: Program Safeguard Contractors and the Claims Processors
                      to Which They Referred Overpayments in 2007 . . . . . . . . . . . 17

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
I N T R O D        U C T             I O N
    I N T R O D U C T I O N


                    OBJECTIVE
                    To determine the collection status, as of June 2008, of Medicare
                    overpayments that program safeguard contractors (PSC) identified and
                    referred to claims processors for collection in 2007.


                    BACKGROUND
                    This report and a companion Office of Inspector General (OIG) report,
                    entitled Medicare Overpayments Identified by Program Safeguard
                    Contractors, OEI-03-08-00031, were prepared in response to a request
                    from the Committee on Energy and Commerce’s Subcommittee on
                    Oversight and Investigations in the U.S. House of Representatives.

                    Although past OIG studies have looked at fraud and abuse detection
                    and deterrence by PSCs, 1 this is the first work to address overpayment
                    referrals by PSCs to claims processors for collection. The referral of
                    overpayments to claims processors for collection is an important PSC
                    activity because it may lead to the recovery of funds to the Medicare
                    program. This report provides information on the collection status of
                    PSC overpayment referrals to claims processors for collection.
                    Program Safeguard Contractors
                    PSCs conduct investigations; refer cases to law enforcement; and take
                    administrative actions, such as referring overpayments to claims
                    processors. In their investigative work, PSCs review Medicare
                    payments and may identify overpayments. 2 When they do identify
                    overpayments, they are required to refer the overpayments to Medicare
                    claims processors for collection. 3
                    CMS awards benefit integrity task orders to PSCs. These task orders
                    require PSCs to detect and deter fraud and abuse in Medicare Part A
                    and/or Part B. Each task order covers a specific geographic jurisdiction.
                    In 2007, CMS had 18 benefit integrity task orders with PSCs, which are


                       1 OIG, Medicare’s Program Safeguard Contractors: Performance Evaluation Reports,
                    OEI-03-04-00050, March 2006. Accessed at http://oig.hhs.gov/oei/reports/oei-03-04-
                    00050.pdf on August 11, 2009. OIG, Medicare’s Program Safeguard Contractors: Activities
                    to Detect and Deter Fraud and Abuse, OEI-03-06-00010, July 2007. Accessed at
                    http://oig.hhs.gov/oei/reports/oei-03-06-00010.pdf on August 11, 2009.
                      2 PSCs were authorized to perform such work pursuant to the Medicare Integrity
                    Program. Social Security Act, § 1893, 42 U.S.C. § 1395ddd.
                      3 Centers for Medicare & Medicaid Services (CMS), Medicare Program Integrity Manual,
                    Pub. No. 100-08, ch. 3, ' 3.8.



 OEI-03-08-00030    C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   1
I N T R O D        U C T             I O N


                    listed in Appendix A. In this report, the term “PSC” refers to a PSC
                    benefit integrity task order.

                    In 2007, 13 of the 18 PSCs had responsibility for both Medicare Parts A
                    and B; 1 had Part A only; 1 had Part B only; and 3 had only Part B
                    durable medical equipment, prosthetics, orthotics, and supplies
                    (DMEPOS).

                    PSCs had oversight responsibility for Medicare Part A and Part B
                    payments totaling $296 billion in 2007. We refer to this as PSCs’ “size
                    of oversight responsibility.” Seventy-one percent of their oversight
                    responsibility was for Part A and 29 percent was for Part B. Other
                    Medicare contractors also have oversight of these payments; however,
                    PSCs focus specifically on detecting and deterring fraud and abuse
                    related to these payments.
                    Zone Program Integrity Contractors
                    CMS is in the process of transitioning PSCs to Zone Program Integrity
                    Contractors (ZPIC). Until the transition is complete, ZPICs and PSCs
                    will both be responsible for Parts A and B and for referring identified
                    overpayments to claims processors for collection.

                    The transition of PSCs to ZPICs is part of CMS’s consolidation of
                    fraud-fighting work so that Parts A, B, C, and D will be under one type
                    of contractor, the ZPIC. CMS expects to have a total of seven ZPICs.
                    Two ZPICs became operational in February 2009, and CMS expects that
                    by the end of 2010, all PSC work will be transitioned to ZPICs.
                    According to CMS staff, five ZPICs that cover high-fraud regions will be
                    expected to focus on quick response to fraud and administrative
                    actions.4
                    Claims Processors
                    Among their responsibilities, Medicare claims processors collect
                    overpayments that are identified by PSCs and other sources. In 2007,
                    the claims processors that received overpayment referrals from PSCs
                    were fiscal intermediaries, carriers, or Medicare administrative
                    contractors. These claims processors had responsibility for specific
                    geographic jurisdictions and claim types. Fiscal intermediaries were



                        4 Director, Program Integrity Group, CMS, presentation slides (p. 4), “PI Contracting
                    Overview – MEDIC vs. ZPIC,” July 29, 2009, for American Health Lawyers Association
                    Part D Compliance Webinar.



 OEI-03-08-00030    C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   2
I N T R O D        U C T             I O N


                    responsible for Part A, carriers for Part B, and Medicare administrative
                    contractors for Parts A and/or B.

                    Claims processors in a PSC’s jurisdiction are known as the PSC’s
                    affiliated contractors. Because PSCs and claims processors do not cover
                    identical jurisdictions and claim types, a PSC may have more than one
                    affiliated claims processor and a claims processor may have more than
                    one PSC in its jurisdiction. Appendix B contains a list of PSCs and the
                    claims processors to which PSCs sent overpayment referrals in 2007.

                    The claims processors are also responsible for keeping track of collection
                    information on the overpayments they seek to recover. At the time of
                    our review, PSCs were not required to keep track of the amount claims
                    processors collect on PSC overpayment referrals. However, as of 2009,
                    CMS is providing ZPICs with incentives to keep track of the amounts
                    claims processors collect on ZPIC overpayment referrals. CMS is also
                    providing claims processors with incentives to provide collection
                    information to ZPICs. These incentives involve reimbursement to
                    ZPICs and claims processors under the respective contracts’
                    performance award fee provisions.
                    Overpayment Collection Process
                    Dollar amount of overpayment. A single overpayment that a PSC
                    identifies and refers for collection may include numerous claims. In
                    addition, the PSC may identify either an actual dollar amount that the
                    provider owes or an extrapolated dollar amount based on a sample of
                    the provider’s claims. 5 The claims processor reviews all the
                    overpayment referral information provided by the PSC and makes a
                    final determination as to the dollar amount to be collected. 6 The dollar
                    amount the claims processor seeks to collect from the provider based on
                    this final determination may be the same as, more than, or less than the
                    overpayment dollar amount that the PSC referred for collection.

                    Demand letter. Usually, after the claims processor makes a final
                    determination of the overpayment, it sends a demand letter to the
                    provider. 7 This letter typically includes the overpayment amount that
                    the provider must repay, methods for repayment, and the provider’s



                        5 CMS,      Medicare Program Integrity Manual, ' 3.8.1.
                        6 CMS,      Medicare Financial Management Manual, Pub. No. 100-06, ch. 4, §§ 10 and 80.2.
                        7 Ibid., ' 90.2. A demand letter is not sent to physicians and suppliers for overpayments
                    that are less than $10.



 OEI-03-08-00030    C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   3
I N T R O D        U C T             I O N


                    appeal rights. 8 The letter alerts the provider that it has 120 days to
                    appeal the overpayment determination. 9 However, if no payment or
                    request for extended repayment plan is received within 30 days, the
                    overpayment is delinquent and begins to accrue interest. 10
                    Investigations and appeals. Claims processors may have to put the
                    collection of PSC overpayment referrals on hold because of
                    investigations. If PSCs are aware of pending investigations, they are
                    required to notify law enforcement of the intention to collect
                    outstanding overpayments. There may be situations in which law
                    enforcement recommends that overpayment collection be postponed if
                    collection of the overpayments will compromise law enforcement actions
                    that are planned or underway. The outcome of an investigation may
                    change the overpayment amount.

                    As with an investigation, the outcome of a provider appeal at any level
                    may change or eliminate the overpayment amount. There are five
                    levels of appeal: Redetermination, Reconsideration, Administrative
                    Law Judge Hearing, Departmental Appeals Board Review, and Federal
                    Court Review. 11 In September 2009, CMS issued a final rule to prohibit
                    overpayment collection during appeals at the Redetermination and
                    Reconsideration levels. 12
                    Collection methods. Claims processors may collect overpayments by
                    withholding the provider’s future Medicare payments. 13 However, this
                    method is possible only if the provider continues billing Medicare.
                    Claims processors may also collect overpayments through the provider’s
                    direct repayment of the full overpayment amount or through the
                    provider’s repayment of the overpayment under an extended repayment
                    plan. 14
                    With a few exceptions, claims processors must refer debt that is
                    180 days (6 months) delinquent to the Department of the Treasury
                    (Treasury) for collection. 15


                        8 CMS,      Medicare Financial Management Manual, '' 20.2 and 90.2.
                        9 CMS,      Medicare Claims Processing Manual, Pub. No. 100-04, ch. 29, ' 220.
                        10 CMS,       Medicare Financial Management Manual, §§ 10, 70.4, and 80.2.
                        11 CMS,       Medicare Claims Processing Manual, ' 220.
                        12 74 Fed. Reg. 47458–47470 (Sept. 16, 2009).
                        13 CMS, Medicare Financial Management Manual, ' 40.1.
                        14 Ibid., ' 50.
                        15 Ibid., '' 70.4, 70.5, 70.6, and 80.2.




 OEI-03-08-00030    C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   4
I N T R O D        U C T             I O N


                    Overpayments sent to Treasury. According to the Debt Collection
                    Improvement Act of 1996, all Federal agencies that have eligible debt,
                    e.g., an overpayment, must refer it to Treasury for collection. 16 With a
                    few exceptions, claims processors send overpayments to Treasury’s
                    cross-servicing program. The cross-servicing program receives referrals
                    of nontax debt from all Federal agencies.

                    Even after the claims processor refers an overpayment to Treasury for
                    collection, the overpayment remains on the claims processor’s records
                    and accrues interest. 17 CMS receives reports from Treasury as to
                    whether any money has been collected. 18 CMS forwards these reports
                    to the claims processor to update its records. 19
                    If Treasury carries an overpayment on its records for 10 years, the
                    claims processor may recommend to CMS that the overpayment be
                    written off. 20 Claims processors cannot write off overpayments without
                    CMS approval.


                    METHODOLOGY
                    Scope
                    We reviewed all Medicare overpayments that PSCs referred to claims
                    processors for collection in 2007. We also reviewed collection information
                    on these referrals through June 2008. Because we collected information
                    through June 2008, claims processors had 6 to 18 months to collect the
                    overpayments depending on when they were referred in 2007.
                    Data sources
                    Between May and October 2008, we collected from PSCs the identifying
                    information about each overpayment that they referred to claims
                    processors in 2007. Between June 2008 and January 2009, we collected
                    from claims processors information regarding each overpayment that the
                    PSCs told us that they referred to claims processors in 2007.




                      16 31 U.S.C. ' 3711(g). This section defines the timeframe for referring debt to Treasury
                    and the types of debt that are not eligible for referral.
                        17 CMS, Medicare Financial Management                                    Manual, '' 70.15.1 and 70.15.3.
                        18 Ibid., '' 70.14.1 and 70.14.2.
                        19 Ibid., ' 70.14.4.
                        20 Ibid., ' 70.17.




 OEI-03-08-00030    C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS     5
I N T R O D        U C T             I O N


                    Data Collection
                    Program safeguard contractors. We sent all 18 PSCs a data request that
                    included a self-administered data collection instrument. We asked
                    PSCs to provide the following identifying information for each
                    overpayment that they referred to claims processors:
                          PSC unique identifier for the overpayment,
                          date overpayment referred,
                          claims processor to which the referral was sent,
                          provider identifying information,
                          provider type (e.g., hospital),
                          claim type (e.g., Part A),
                          whether overpayment amount was actual or extrapolated,
                          dollar amount of overpayment in referral,
                          claims processor’s tracking number for this overpayment
                           (e.g., accounts receivable number),
                          date of demand letter, and
                          dollar amount of overpayment in demand letter.
                    We also asked PSCs for the contact information for the claims processor
                    representatives to whom the PSCs sent overpayment referrals in 2007
                    or the current person handling these overpayment referrals.

                    All PSCs responded to the initial data request. We requested clarifying
                    information from all PSCs at least once, and in some cases, we made
                    repeated attempts to get clarification. After all these attempts, all PSCs
                    except one provided the clarifications we requested. This one PSC did
                    not provide the provider type for one overpayment referral.

                    Claims processors. We sent a self-administered data collection
                    instrument to the 31 claims processor representatives at 16 claims
                    processors identified by the PSCs. Claims processor representatives at
                    the same claims processor were responsible for overpayment referrals
                    based either on claim type or referring PSC. Some of the claims
                    processors that had more than one representative identified by the
                    PSCs chose to have only one representative respond to our data request.
                    As a result, the number of claims processor representatives that
                    responded to our data request was 26. We refer to these respondents as
                    claims processors in this report.

                    We sent the claims processors the overpayment information that PSCs
                    provided to identify the overpayment referrals made in 2007. For each
                    PSC overpayment referral, we asked the claims processor to provide the
                    following information:
                          date overpayment referral received,

 OEI-03-08-00030    C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   6
I N T R O D        U C T             I O N


                          claims processor’s unique tracking number for this overpayment
                           (e.g., accounts receivable number),
                          date of demand letter,
                          dollar amount in demand letter (i.e., overpayment amount sought
                           for collection),
                          changes to overpayment amount sought for collection (other than
                           as a result of an appeal),
                          whether overpayment determination was appealed,
                          changes to overpayment amount sought for collection as a result
                           of an appeal,
                          overpayment principal collected and interest collected through
                           June 2008,
                          method used to collect the overpayment,
                          whether collection was complete, and
                          reason why collection was not complete (e.g., overpayment sent to
                           Treasury), if applicable.
                    All claims processors responded to the initial data request. In cases in
                    which claims processors did not provide all the information we
                    requested, we requested the information or clarification at least once
                    and, in some cases, made repeated attempts to get the information or
                    clarification. After all attempts, some claims processors did not provide
                    all the information we requested. For example, some claims processors
                    did not provide information on whether the overpayments were
                    appealed.
                    Analysis
                    Overpayments provided by PSCs. PSCs provided information on
                    4,242 overpayments that they referred to claims processors for collection
                    in 2007. We removed three of these overpayments from our analysis
                    because neither the PSC nor the claims processor provided the referral
                    dollar amounts. Therefore, we reviewed 4,239 overpayments for this
                    report. 21
                    After reviewing the collection information that claims processors
                    provided, we summarized the collection status of the overpayment
                    dollars associated with the 4,239 overpayments. We also calculated the
                    percentage of dollars in each status by Part A, Part B excluding
                    DMEPOS, and Part B DMEPOS.




                        21 Of the 4,239 overpayments, only 1 was made to a beneficiary.




 OEI-03-08-00030    C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   7
I N T R O D        U C T             I O N


                    Limitations
                    We did not independently verify information provided by PSCs or claims
                    processors.
                    Standards

                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-08-00030    C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   8
                          F I N D I N G


                                                                                                                                  PSCs referred 4,239 overpayments
             Overpayments that PSCs referred for collection                                                                       totaling $835 million to claims
               did not result in significant recoveries to the                                                                    processors during 2007, but very
                                           Medicare program                                                                       little had been collected as of
                                                 June 2008. Table 1 shows the collection status of these PSC
                                                 overpayment referrals by claim type.

Table 1: Collection Status as of June 2008 for PSC Overpayments Referred in 2007
                                                                                                     Part B
                                                                                                                                                            Part B
                                                  Part A                                         Excluding
                                                                  Part B Dollars                                                   Part B                DMEPOS                      Percentage
Status of                                    Percentage                                           DMEPOS
                         Part A Dollars                               Excluding                                                  DMEPOS                Percentage    Total Dollars      of Total
Overpayments                                    of Total                                        Percentage                                                                                     1
                                                                       DMEPOS                                                     Dollars                 of Total                      Dollars
                                                 Dollars                                           of Total
                                                                                                                                                           Dollars
                                                                                                    Dollars

    Collected              $14,998,460               27%            $30,623,350                            56%               $9,331,567                       17%     $54,953,377           7%

    Sent to
            2              $37,868,510                 9%         $128,805,119                             29%             279,326,567                        63%    $446,000,196          53%
    Treasury

    Still Being
    Collected or
                            $6,769,940               17%            $28,535,848                            71%               $4,768,221                       12%     $40,074,009           5%
    Collection Not
    Begun

    Not Likely To
    Be Collected
                            $3,894,421                 9%           $34,695,985                            81%               $4,247,910                       10%     $42,838,316           5%
    by Claims
    Processors

    On Hold for
    Investigation           $7,569,038                 5%         $126,085,562                             91%               $5,616,949                       4%     $139,271,549          17%
    or Appeal

    No Longer
    Owed by                 $3,940,844                 8%           $25,046,129                            52%             $19,153,664                        40%     $48,140,637           6%
    Providers

    Claims
    Processor
                           $12,932,525               20%            $38,777,544                            61%             $12,067,788                        19%     $63,777,857           8%
    Could Not
    Provide Data

        Total              $87,973,738                            $412,569,537                                          $334,512,666                                 $835,055,941
Source: OIG analysis of responses from PSCs and claims processors.
1
    Percentages in this column add up to 101 percent rather than 100 percent because of rounding.
2
    Percentages in this row for Parts A, B, and Part B DMEPOS add up to 101 percent rather than 100 percent because of rounding.



                                                 Seven percent of the overpayment dollars referred by PSCs was collected as
                                                 of June 2008
                                                 Claims processors collected 7 percent, or $55 million, of the $835 million
                                                 in overpayments that PSCs referred in 2007. Of the overpayments
                                                 collected, 27 percent was for Medicare Part A, 56 percent was for Part B
                                                 excluding DMEPOS, and 17 percent was for Part B DMEPOS.

                      OEI-03-08-00030            C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                            9
F   I N D I N G


                      Part A represented 27 percent of the dollars collected on PSC
                      overpayment referrals and 11 percent of PSCs’ overpayment dollars
                      referred for collection. Part B, excluding DMEPOS, represented 56
                      percent of dollars collected on PSCs’ overpayment referrals and 49
                      percent of PSCs’ overpayment dollars referred for collection. Part B
                      DMEPOS represented 17 percent of dollars collected on PSCs’s
                      overpayment referrals and 40 percent of PSCs’ dollars referred for
                      collection.
                      Fifty-three percent of the PSC overpayment dollars was sent to Treasury for
                      collection
                      As of June 2008, more than half (53 percent) of the overpayments that
                      PSCs referred for collection in 2007 ($446 million of $835 million) was
                      referred to Treasury’s cross-servicing program for collection. It is
                      unlikely that the full amount of the PSC overpayments referred to
                      Treasury will be collected in the future. Treasury is the last avenue for
                      collecting overpayments and other nontax debt from all Federal
                      agencies. However, the cross-servicing program does not have a high
                      rate of return. For each year between fiscal years 2003 and 2007, the
                      program never collected more than 2 percent of all debt referred to it. 22
                      Of the $446 million in overpayments referred to Treasury, 63 percent
                      was for Part B DMEPOS.
                      For 5 percent of the overpayment dollars, collection was still underway or
                      had not begun yet
                      Claims processors reported that collection was not complete for
                      $40 million. Of this $40 million, $27 million was still being withheld
                      from the providers’ future payments. In addition, they were still
                      collecting on $4 million because the providers were on extended
                      repayment plans. As long as these providers continue billing or making
                      payments, this portion of the $40 million is expected to be collected in
                      full.
                      For $3 million in overpayment referrals, claims processors reported that
                      the collection process had not yet begun as of June 2008. Claims
                      processors were either setting up the collection process or had requested
                      more information from the PSCs about these overpayments. For the
                      remaining $6 million of $40 million, claims processors reported that

                          22 Treasury,
                                     Fiscal Year 2007 Report to the Congress: U.S. Government Receivables and
                      Debt Collection Activities of Federal Agencies, May 2008, p. 13. Accessed online at
                      http://fms.treas.gov/news/reports/debt07.pdf on March 20, 2009.



    OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   10
F   I N D I N G


                      collection was not complete but did not explain the reason why or
                      reported that they could not provide the information.

                      Of the $40 million still being collected, 71 percent represented Part B,
                      excluding DMEPOS.
                      Five percent of the PSC overpayment dollars will not likely be collected by
                      claims processors
                      Five percent, or $43 million, will not likely be collected by claims
                      processors. This amount represents providers that stopped billing
                      ($31 million), filed for bankruptcy ($7 million), are out of business
                      ($4 million), or are deceased (less than $1 million). Of the $43 million
                      not likely to be collected by claims processors, 81 percent was for Part B
                      claims, excluding DMEPOS.
                      Collection was on hold as of June 2008 pending investigations or appeals
                      for 17 percent of PSC overpayment dollars
                      Claims processors reported that $139 million of the $835 million referred
                      by PSCs (17 percent) was on hold as of June 2008. Regarding the $139
                      million, claims processors reported that ongoing investigations were the
                      reason $76 million was currently not being collected and provider appeals
                      were the reason $63 million was currently not being collected. Depending
                      on the outcome of the investigations and appeals, these overpayment
                      amounts may be increased, reduced, or eliminated.

                      Of the $139 million on hold because of investigations and provider appeals,
                      91 percent represented Part B excluding DMEPOS.
                      Six percent of the PSC overpayment dollars was no longer owed by
                      providers
                      Of the $835 million in overpayment referrals, 6 percent, or $48 million,
                      will not be collected because the overpayment amounts were reduced by
                      the claims processors. The reasons for these reductions include
                      revisions to the overpayment collection amounts made by claims
                      processors and changes because of appeal decisions that were favorable
                      to the providers.

                      Of the $48 million that providers no longer owe, 52 percent ($25 million)
                      was for Part B claims, excluding DMEPOS; 40 percent ($19 million) was
                      for Part B DMEPOS claims; and 8 percent ($4 million) was for Part A
                      claims.




    OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   11
F   I N D I N G


                      Claims processors could not provide data for more than a quarter of the
                      PSC overpayment referrals, which represent $64 million, or 8 percent, of the
                      PSC overpayment dollars
                      For 8 percent of the overpayment dollars referred by PSCs—$64 million
                      of $835 million—claims processors could not provide data. Claims
                      processors could not provide information for 1,060 overpayments, or
                      1 in 4 overpayments PSCs referred (1,060 of 4,239). These
                      1,060 overpayments represented $58 million of the $64 million. Claims
                      processors reported that they did not receive these referrals from the
                      PSCs or that they could not provide any collection information about
                      them. Claims processors did not provide all of the necessary
                      information for OIG to determine the collection status for another
                      44 overpayments, totaling $6 million.




    OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   12
   R E C O M M E N D A T I O N S




                  This OIG report presents the collection status of overpayments, as of
                  June 2008, that Medicare’s PSCs identified and referred to claims
                  processors for collection in 2007. A companion OIG report, entitled
                  Medicare Overpayments Identified by Program Safeguard Contractors,
                  OEI-03-08-00031, presents the number, dollar amount, and claim type
                  of overpayments PSCs identified and referred to claims processors for
                  collection in 2007.
                  PSCs were established to strengthen CMS’s ability to detect and deter
                  fraud and abuse in the Medicare program. PSCs conduct investigations;
                  refer cases to law enforcement; and take administrative actions, such as
                  referring overpayments to claims processors for collection and return to
                  the Medicare program. As CMS transitions PSCs to ZPICs, CMS
                  expects ZPICs that cover high-fraud regions to focus on quick response
                  to fraud and administrative activities.
                  Because of the emphasis on administrative actions and the Medicare
                  dollars at risk, it is important that CMS know the actual amount of Part
                  A and Part B overpayments that PSCs and ZPICs refer to claims
                  processors and the collection status of these overpayments. We found
                  that overpayments that PSCs referred to claims processors for collection
                  did not result in significant recoveries to the Medicare program. Of
                  $835 million in overpayments that PSCs referred in 2007, only
                  7 percent was collected by June 2008.

                  CMS has the responsibility to ensure that PSCs and ZPICs perform
                  effectively. To help it do so, it needs to have complete and accurate
                  information about PSCs’ overpayment referrals to claims processors and
                  the collection status of these overpayments. Moreover, CMS needs to
                  ensure that PSCs, ZPICs, and claims processors can identify all current
                  and future overpayment referrals by PSCs and ZPICs.

                  We recommend that CMS:
                  Regularly collect all necessary information to determine the overpayments
                  PSCs and ZPICs refer to claims processors for collection, the collection
                  status of these overpayments, and the percentage of overpayments in each
                  category of collection status
                  For example, for each overpayment referral, collect the overpayment
                  amount referred, changes to overpayment amount and reason for the
                  changes, method used to collect the overpayment, amount collected to

OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   13
R   E C O        M M E N D A T                         I O N                  S


                      date, the collection status, and reasons why collection is not complete.
                      This information would help CMS determine whether PSCs and ZPICs
                      are performing effectively.

                      Require that PSCs, ZPICs, and claims processors have controls in
                      their tracking systems to ensure that all overpayment referrals and
                      data related to their collection status can be found
                      We found that PSCs and claims processors had different information
                      about PSC overpayment referrals for 2007. PSCs reported that they
                      referred 4,239 overpayments to claims processors, but claims processors
                      reported that they did not receive or could not provide information for
                      1,060 of these 4,239 PSC overpayments referrals. We also found that
                      claims processors could not always provide collection status
                      information, such as whether an overpayment was appealed.

                      Determine what happened to the 1,060 overpayments that PSCs
                      referred to claims processors in 2007 for which claims processors
                      could not provide any collection information
                      These 1,060 overpayments totaled $58 million and represented
                      25 percent of the PSC overpayment referrals sent to claims processors
                      in 2007. It is important that the overpayments PSCs refer to claims
                      processors be reviewed and collected. We will provide CMS with the
                      identifying information that PSCs sent us for these 1,060 overpayments.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS stated that it has begun implementing its strategy to align the
                      existing PSCs geographically with claims processors, i.e., the Medicare
                      Administrative Contractors (MAC), and that the premise of the new
                      strategy is to have a more concentrated effort of identifying fraud and
                      abuse across claim types in each zone. CMS stated it is concerned about
                      the low level of collection and the missing information related to
                      overpayments. CMS also stated that since the date of OIG’s review,
                      CMS has established procedures to strengthen the monitoring and
                      oversight of overpayment collection and ensure better contractor
                      communication. CMS added that the ZPIC Statement of Work (SOW)
                      includes internal controls to ensure coordination of the overpayment
                      activities.

                      CMS concurred with our first recommendation and stated that to
                      ensure that it can monitor how MACs respond to PSCs’ overpayment
                      referrals, CMS added this requirement, in October 2009, to the CMS

    OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   14
R   E C O        M M E N D A T                         I O N                  S



                      Analysis/Reporting/Tracking System (CMS ARTS) template for monthly
                      reporting. Additionally, in order for a MAC to obtain an award fee, a
                      criterion was added in fiscal year 2009 related to the tracking of
                      overpayments identified by PSCs and ZPICs.

                      CMS concurred with our second recommendation and, in
                      October 2009, added a data field to CMS ARTS for monthly reporting of
                      the collection status of the overpayment referrals. Submitting this
                      information is now a requirement in the ZPIC SOW.

                      CMS concurred with our third recommendation and is working with
                      claims processors to determine what happened to the
                      1,060 overpayments that the PSCs referred to the claims processors in
                      2007, for which the claims processors could not provide collection
                      information. CMS will require the claims processors to recover the
                      potential overpayments identified by OIG consistent with the agency’s
                      policies and procedures.

                      Although CMS has implemented several monthly reporting
                      requirements to improve the tracking and quality of overpayment
                      collection information, OIG believes it is important that CMS also
                      continually monitor and evaluate the effectiveness of its contractors’
                      overpayment collection efforts.

                      The full text of CMS’s comments is provided in Appendix C.




    OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   15
      A P P E N D I X ~ A




            Table A-1: Benefit Integrity Task Orders in 2007

              Company                                                                                                                 Number of Benefit
                                                                                                                                   Integrity Task Orders

              AdvanceMed                                                                                                                              3

              Cahaba Safeguard Administrators, LLC                                                                                                    2

              Computer Sciences Corporation                                                                                                           1

              IntegriGuard, LLC                                                                                                                       1

              SafeGuard Services, LLC                                                                                                                 6
              TriCenturion                                                                                                                            3

              TrustSolutions, LLC                                                                                                                     2

                  Total                                                                                                                              18
            Source: Centers for Medicare & Medicaid Services, Office of Financial Management, Program Integrity Group.




OEI-03-08-00030           C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                       16
   A P P E N D I X ~ B




     Table B-1: Program Safeguard Contractors and the Claims Processors to
     Which They Referred Overpayments in 2007
     Program Safeguard Contractor Task Order                                                                                                         Claims Processor

                                                                                                                                     National Government Services, Inc.
     AdvanceMed
                                                                                                                                                    Palmetto GBA, LLC
                                                                                                                                     CIGNA Government Services, LLC
     AdvanceMed
                                                                                                                  Riverbend Government Benefits Administrator
                                                                                                                                       Pinnacle Business Solutions, Inc.
     AdvanceMed
                                                                                                                                                TriSpan Health Services

     Cahaba Safeguard Administrators, LLC                                                                                                           Palmetto GBA, LLC

                                                                                               Cahaba Government Benefit Administrators, LLC (Part A)
     Cahaba Safeguard Administrators, LLC
                                                                                               Cahaba Government Benefit Administrators, LLC (Part B)
                                                                                                                                     CIGNA Government Services, LLC
     Computer Sciences Corporation                                                                               Noridian Administrative Services, LLC (Part A)
                                                                                                                 Noridian Administrative Services, LLC (Part B)
     IntegriGuard, LLC                                                                                           Wisconsin Physicians Service Insurance Corp.
                                                                                                                                        First Coast Service Options, Inc.
                                                                                                                                     National Government Services, Inc.
     SafeGuard Services, LLC
                                                                                                                                                            NHIC, Corp.
                                                                                                                                       Pinnacle Business Solutions, Inc.
     SafeGuard Services, LLC                                                                                                                                NHIC, Corp.
                                                                                                                                             Group Health Incorporated
                                                                                                                                              HealthNow New York, Inc.
     SafeGuard Services, LLC
                                                                                                                                     National Government Services, Inc.
                                                                                                                  Riverbend Government Benefits Administrator
                                                                                                                        Highmark Medicare Services, Inc. (Part A)
     SafeGuard Services, LLC
                                                                                                                        Highmark Medicare Services, Inc. (Part B)
                                                                                                                                        First Coast Service Options, Inc.
     SafeGuard Services, LLC
                                                                                                                                                     Triple-S Salud, Inc.
     SafeGuard Services, LLC                                                                                                    Noridian Administrative Services, LLC
     TriCenturion                                                                                                                    Trailblazer Health Enterprises, LLC
     TriCenturion                                                                                                                                   Palmetto GBA, LLC
                                                                                                                                     National Government Services, Inc.
     TriCenturion
                                                                                                                                                            NHIC, Corp.
                                                                                                                                     National Government Services, Inc.
     TrustSolutions, LLC
                                                                                                                 Wisconsin Physicians Service Insurance Corp.
     TrustSolutions, LLC                                                                                                             CIGNA Government Services, LLC
    Source: Office of Inspector General review of responses from program safeguard contractors.



    OEI-03-08-00030            C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                             17
     A P PEN 0                      x        c


Agency Comments




 ('l         DEPARTMENT OF HEALTH & HUMAN SERVIm;                                     Cenlers for Medicare & Medicaid Services


                                                                                      Administrator
                                                                                      Washington. DC 20201




           DATE:            FEB 0 2 2010
           TO: 	          Daniel R. Levinson' 

                          Inspector General 


           FROM: 	        Charlene Prizzera 
 /S/
                          Acting Administrator 


           SUBJECT: 	 Office of Inspe,ctor General (OIG) Draft Report: "Collection Status of Medicare
                      Overpayments Identifit;<! by Program Safeguard Contractors" (OEI-03-08-00030)

           Thank you for the opportunity to review and comment On the above referenced Office of
           Inspector General (OIG) Draft Report.

           The OIG conducted this audit to determine"the collection status, as of June 2008, of Medicare
           overpayments that the Program Safeguard Contractors (PSCs) identified and referred to claims
           processing contractors for collection in 2007. The Centers for Medicare & Medicaid Services
           (CMS) has begun implementing its strategy to align the existing PSCs geographically with the
           Medicare Administrative Contractors (MACs). The premise of the new strategy is to have a
           more concentrated effort of identifying fraud and abuse across claim types in each zone. Under
           this new strategy, CMS will divide the nation into seven zones, each of which contains one or
           more entire MAC jurisdictions. Each zone wilIhave a Zone Program Integrity Contractor
           (ZPIC) that performs benefit integrity functions. With this approach, CMS has brought together
           responsibility for all Medicare program integrity efforts for Parts A, B, home health and hospice,
           and Durable Medical Equipment (DME). The agency is now in the process oftransitioning
           PSCs to ZPICs. Currently, we have two ZPICs fully operational.

           The PSCs are required to detect and deter fraud and abuse In their jurisdictions, a role the ZPICs
           will assume as they become operational. The PSCs conduct investigations, refer cases to !(IW
           enforcement, and take administrative actions, such as referring overpayments to claims
           processing contractors fOr collection. The .claims processing contractor makes the final
           determination of the dollar amount to demand from a provider, and this amount may differ from
           the overpayment amount referred by the PSC.

           The OIG found that during 2007, PSCs referred 4,239 overpayments totaling $835 million to
           claims processing contractors. As of June 2008, claims processing contractOrs collected only-7
           percent, or $55 million. For 8 percent of the overpayment dollars referred by the PSCs ($64
           million of $835 milfion), claims processing contractors could not provide any data on these
           referrals. The contractors reported that they did not receive or could nOt provide any collection
           information for 1,060 of 4,239 overpayments.




    OEI·03-0a·00030        COLLECTION STATUS OF MEDICARE OVERPAYMENTS IDENTIFIED BY PSCs                                         18
A   P     P E N D         I X ~         C




        OEI-03-08-00030     C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   19
A    P   P E N D      I X ~            C




    OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   20
   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Isabelle Buonocore served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Conswelia McCourt and Cynthia R. Hansford; other central office staff
                  who contributed include Scott Manley.




OEI-03-08-00030   C O L L E C T I O N S TAT U S   OF   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   21
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
